                            UNCLASSIFIED

         United States Department of State
       and the Broadcasting Board of Governors
                 Office of Inspector General




  Strategic Management of

Human Capital and Workforce

 Planning Initiatives at the

   Broadcasting Board of

         Governors


 Report Number IBO-A-03-02, September 2003




                                IMPORTANT NOTICE
   This report is intended solely for the official use of the Department of State or the
   Broadcasting Board of Governors, or any agency or organization receiving a copy
   directly from the Office of Inspector General. No secondary distribution may be
   made, in whole or in part, outside the Department of State or the Broadcasting
   Board of Governors, by them or by other agencies or organizations, without prior
   authorization by the Inspector General. Public availability of the document will
   be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
   Improper disclosure of this report may result in criminal, civil, or administrative
   penalties.



                              UNCLASSIFIED

                                           UNCLASSIFIED





                             TABLE OF CONTENTS

S UMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

RESULTS OF REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

     Major Management Challenges Identified . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

               Barriers to Restructuring the Workforce . . . . . . . . . . . . . . . . . . . . 10

               The Human Capital Implementation Framework . . . . . . . . . . . . . 10

               OPM’s Workforce Planning Model . . . . . . . . . . . . . . . . . . . . . . . . . 11

               Partial Implementation of Human Capital Plan . . . . . . . . . . . . . . 11

               Efforts To Achieve a Diversified Workforce . . . . . . . . . . . . . . . . . 13

               BBG/IBB’s Acquisition Workforce and Federal Standards . . . . . 14

               Human Capital Planning and Strategic Goals . . . . . . . . . . . . . . . . 15

     How BBG/IBB Efforts Align With OPM’s Keys to Evaluating
     Workforce Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

               Linking Workforce Plans to the Strategic Plan . . . . . . . . . . . . . . . 16

               Monitoring and Revising the Plans and Strategies . . . . . . . . . . . . . 17

               Workforce Demographics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

               Workforce Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

               Federal Professional Standards for Acquisition

               and Procurement Staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

APPENDICES

     A. OMB’s Performance Assessment Rating Tool . . . . . . . . . . . . . . . . . . . .                                  33

     B. OPM’s Federal Workforce Planning Model . . . . . . . . . . . . . . . . . . . . . .                                35

     C. GAO’s Human Capital Principles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        37

     D. OMB’s Standards for Success—Human Capital Plans . . . . . . . . . . . . .                                         39

     E. OPM’s 5-Step Workforce Planning Model . . . . . . . . . . . . . . . . . . . . . . .                               41





                                           UNCLASSIFIED

                               UNCLASSIFIED





       F. Acquisition Training Recommended by GSA’s Federal Acquisition
       Institute . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
       G. Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
TABLES
     1: BBG/IBB Workforce by Office September 2000 . . . . . . . . . . . . . . . . . 18
     2: How BBG/IBB Workforce Compared with the Federal Workforce . . . 19




                               UNCLASSIFIED

                                            UNCLASSIFIED





                                             SUMMARY

    The President’s Management Agenda (PMA) requires all federal agencies to
prepare comprehensive plans to remove management layers; attract a high-quality,
diverse workforce; and link workforce needs directly to the achievement of strate
gic objectives. PMA guidance calls for the creation of a results-oriented, perfor
mance-based culture in which agencies recruit, train, and retain the right people
with the right skills to ensure success. Under PMA, the Office of Management and
Budget (OMB), Office of Personnel Management (OPM), and General Accounting
Office (GAO) have prepared consolidated guidance, Human Capital Standards of
Success, to help agencies develop these plans.

    PMA underscores the need for agencies to link their human capital planning
efforts clearly and directly with their strategic and program plans developed under
the Government Performance and Results Act (GPRA).1 In response, the Broad
casting Board of Governors’ International Broadcasting Bureau (BBG/IBB) pre
pared both workforce restructuring plans and an outline for a human capital plan,
but these plans do not encompass all BBG/IBB staff nor meet the criteria set forth
in the consolidated guidance. Moreover, the plans do not fully comply with OMB
standards requiring agencies to link program goals with performance measures and
results.

    The agency uses its annual language service review to systematically evaluate
performance, results, and service priorities as well as align organizational endeav
ors. However, the lack of a detailed human capital plan makes it difficult to
measure how effectively the agency can validate its workforce planning and re
structuring efforts.

    The Office of Inspector General (OIG) reviewed BBG/IBB’s workforce
restructuring and human capital plans to determine whether BBG/IBB was facing
challenges in complying with the PMA goals and OMB standards. OIG found that
BBG/IBB was facing major human capital challenges in striving to meet the PMA.
For example, the agency told OIG that after a series of nine staffing reductions
between 1994 and 2000, it was challenged to meet its mission while assuming the
legal, security, procurement, training, personnel, and other administrative functions


1
    Pub. L. No. 103-62 (1993).


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   1 .

                                            UNCLASSIFIED
                                                UNCLASSIFIED



            it inherited when it became an independent entity in 1999. According to a July
            2001 report to OMB by the chief of staff, the agency lacked expertise in adminis
            tration, management, and budgeting, which adversely affected the support its
            managers needed to make day-to-day administrative and programmatic decisions.2
            During this review, agency managers told OIG that many staff members needed
            training to adapt to changing broadcasting skill sets in order to respond more
            effectively to immediate and emerging broadcast demands.

                 BBG/IBB employees are closer to retirement, more male, higher graded, better
            paid, and have fewer years of service when compared with other federal employees.
            According to BBG/IBB workforce plans, by 2007 up to 83 percent of current
            managers and supervisors and 67 percent of other current staff will be eligible for
            retirement. Additionally, given standard attrition rate projections, up to an addi
            tional 24 percent of staff not eligible for retirement may also depart over the next
            few years. By contrast, only 35 percent of the federal workforce will be eligible to
            retire during the same period.

                BBG/IBB has made progress in diversifying its workforce through recruitment,
            training, and other initiatives, although racial and ethnic inequalities persist. OIG
            found, however, that BBG/IBB did not provide specific plans for establishing a
            more diverse workforce.

                 From its own assessment, BBG/IBB faces significant human capital challenges,
            such as an aging workforce, succession planning, and adapting to changes in tech
            nology indicative of trends throughout the federal workforce. A human capital
            crisis, as described by GAO, may be imminent.3 As the administration places
            greater importance on linking strategic goals, performance management, budget
            allocation, and results under OMB’s new Performance Assessment Rating Tool
            (PART)4 process, BBG/IBB needs to make improvements in its workforce planning
            effort or risk a diminished ability to compete for resources in a tight fiscal environ
            ment.




             2
              BBG/IBB Workforce Restructuring Plan for 2003-2007 (September 24, 2001) and the Broadcasting
             Board of Governors, Workforce Analysis (July 3, 2001).
             3
              High Risk: An Update, Strategic Human Capital Management: A Government-wide High Risk Area (GAO-01-263,
             Jan. 1, 2001), pp. 71-96.
             4
                 See Appendix A for a description of PART.


2 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                UNCLASSIFIED
                                            UNCLASSIFIED





                           PURPOSE AND SCOPE

    OIG performed a review of the BBG/IBB workforce restructuring and human
capital plans. OIG’s objective was to determine whether the agency was facing
challenges in complying with the human capital management goals in PMA and
standards in GPRA; OMB directives, plans, policies, procedures, and performance
assessment tools; and OPM guidelines for workforce planning and GAO consoli
dated guidance. In the Foreign Relations Authorization Act, Fiscal Year 2003,5
BBG was directed to report on its efforts to diversify its workforce as part of its
long-term planning, and OIG reviewed these efforts. OIG also reviewed how
BBG/IBB was working to remedy past problems in property management and
acquisitions and procurement.6

     OIG performed this review between June 2002 and March 2003 in accordance
with generally accepted government auditing standards. OIG interviewed and met
with officials from BBG, including the BBG executive director and general coun
sel;7 and IBB’s Offices of Administration, Contracts, Personnel, Civil Rights,
Performance Review, and Engineering and Technical Services; and the Voice of
America (VOA) language services. OIG also met with BBG grantees, Radio Free
Europe/Radio Liberty (RFE/RL), and Radio Free Asia. Although OIG reviewed
official Board minutes and met with Board staff, it did not meet with Board mem
bers. OIG was not able to meet with the chief financial officer, despite having
three confirmed appointments.

    OIG interviewed officials and subject-area experts at OMB, OFPP, OPM,
GAO, and the Foreign Service Institute. OIG also reviewed and analyzed BBG/
IBB and Radio Marti/TV Marti workforce analysis and restructuring plans and
personnel enhancement proposals; draft strategic plans; personnel and staffing
records; human capital and workforce planning guidance; training budgets; and
IBB-generated guidance pertaining to acquisition workforce management, person
nel management, and performance appraisals. In addition, OIG reviewed pertinent
congressional testimony and legislative records. Finally, OIG met with private

5
    Pub. L. No. 107-228, Sec. 506 (2002).
6
 See Review of the Broadcasting Board of Governors’ Controls on Domestic Personal Property (IBO-A-02-03, Sept.
2002); Review of the Effectiveness and Implementation of the Office of Cuba Broadcasting’s New Program Initiatives (IBO
A-03-01, Jan. 2003).
7
    OIG met with the BBG executive director and general counsel at the exit conference.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   3 .

                                            UNCLASSIFIED
                                                UNCLASSIFIED




            sector experts who are working with federal agencies to help them meet the Execu
            tive Branch Management Scorecard agenda for human capital plans and perfor
            mance management issues in the federal workforce.8

                OIG’s Office of International Broadcasting Oversight, with assistance from the
            Office of Audits, Procurement, Property and Administrative Support Division,
            performed this review. Major contributors to this report were Louis A. McCall,
            acting assistant inspector general; Lenora R. Fuller, audit manager; Susan Adams,
            senior auditor; and Robert Raynor, management analyst.




            8
             Experts include the American Society of Training and Development, the Council for Excellence in Gov
            ernment, the National Association of Public Administration, the President’s Council on Integrity and
            Effectiveness, and AVUE, a private sector entity that markets successfully to the federal government.


4 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                UNCLASSIFIED
                                            UNCLASSIFIED





                                      BACKGROUND

    GPRA requires agencies to prepare strategic plans, goals, and objectives that
must include descriptions of the operational processes, skills, and human resources
required to meet those goals and objectives. The administration’s chief manage
ment priority is to link performance goals with agency budgets, use performance
information in setting program priorities, allocate resources, and adopt new ap
proaches to improve management and program performance. To reinforce GPRA
implementation and to support the goal of making government more results-
oriented, PMA was launched in August 2001.

    To respond to the PMA, OMB directed all agencies to prepare plans to stream
line their organizations, remove management layers, and determine workforce
needs.9 OMB deployed an Executive Branch Management Scorecard to measure
how departments and agencies were executing their management initiatives, using a
simple “traffic light” grading system: green for success, yellow for mixed results,
and red for unsatisfactory. OPM developed the criteria for evaluating the
workforce planning effort.10 Under PMA, OMB, OPM, and GAO prepared consoli
dated guidance to help agencies develop and implement these plans.

     Federal workforce planning, according to OPM, details the strategic, structured,
systematic, and continuous actions that must be taken by agencies to allocate
resources; align the organization; and recruit, train, and retain the right people in
the most effective method possible to achieve success. It also requires each agency
to have a diverse, results-oriented workforce; an effective performance manage
ment system in place; and an environment that supports inclusiveness and is
responsive to the needs of all employees of all backgrounds. Agencies need to
recruit, hire, develop, and retain employees with strategic competencies in mission-
critical occupations. Leaders project high standards and values and motivate staff
in a culture where high performance and continuous professional development are
rewarded. GAO uses the term human capital to define workforce planning, but it
also means the people, whose value can be enhanced through investment so that
the performance capacity of an organization increases.11
9
    OMB Bulletin 01-07, Workforce Planning and Restructuring (May 8, 2001).
10
     See Appendix B, OPM’s Federal Workforce Planning Model Steps.
11
  See Appendix C for GAO’s Human Capital Principles, Appendix D for a summary of OMB’s Standards
for Success, and Appendix E for OPM’s 5-Step Workforce Planning Model.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   5 .

                                            UNCLASSIFIED
                                                UNCLASSIFIED



                 BBG/IBB has undertaken a program to improve workforce planning, linking
            human resources with the organizational mission and goals within the framework
            of the management scorecard. The outline for its human capital management plan
            provided for the implementation of a new automated personnel tracking system, a
            new performance appraisal system for managers and supervisors, and expansion of
            its mentoring and developmental training programs. A training needs survey was
            done, and an advisory group was put in place to help develop training priorities.
            BBG/IBB is instituting new testing procedures for foreign language broadcaster
            applicants in coordination with OPM. There are also plans to formalize evaluation
            criteria for job applicants to ensure fairness in the selection and hiring process. In
            addition, as part of its strategic restructuring efforts, BBG/IBB is working with
            OPM to devise tests to capture the changes in skills now required of international
            broadcasters.

                Further, the Office of Performance Review is conducting annual program
            reviews for each language service during which analysis, critiques, and recommen
            dations on the language competency and presentation style of the broadcasters is
            provided. Attendance at EEO training classes for managers and supervisors is
            mandated and being enforced. BBG/IBB also has established an awards program to
            recognize and reward staff for their contributions.




6 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                UNCLASSIFIED
                                            UNCLASSIFIED





                            RESULTS OF REVIEW

    In response to GPRA and PMA, BBG/IBB has developed workforce restruc
turing plans and a human capital program designed to establish a results-oriented,
performance-based culture; implement best practices; and encourage the use of
performance measures to achieve a more efficient, effective workforce to help the
agency achieve its strategic goals and objectives and meet congressional mandates.
As part of this effort, IBB has created a new awards program, increased budgetary
support for training, expanded developmental assignments, established training
needs assessment and annual process review, implemented an automated personnel
management system, and mandated training for managers and supervisors. Annual
performance evaluations have also been implemented for managers and supervisors
and are planned for staff.

    The agency has undertaken a program to improve workforce planning, linking
human resources with the organizational mission and goals within the framework
of the Executive Branch Management Scorecard. At present, BBG/IBB faces
numerous challenges to effectively restructuring its workforce. The outline for a
human capital plan is a major step in the right direction, but more work remains to
be done to pass the management scorecard. For example, the atmosphere is
strained by the agency’s loss of the largest gender bias class action lawsuit in the
history of the U.S. government, and discrimination complaints continue amid
reports of a hostile work environment.12

     In light of the March 2000 settlement of a 1974-84 class action lawsuit, the
agency needs to promote an all-inclusive working environment.13 According to one
recent internal survey on workforce diversity, both the staff and managers that
participated acknowledged that racial and ethnic inequalities persist with regard to
hiring and promotions and that managers, supervisors, and staff practice preferen
tial treatment.14 In addition, an internal management study called for greater
12
   BBG/IBB Office of Civil Rights, Annual Federal Equal Employment Opportunity Statistical Report of Discrimina
tion Complaints, October 2000-September 2001 (Mar. 22, 2002).
13
  The liability period was Oct. 8, 1974,-Nov. 16, 1984, 15 years before BBG became an independent fed
eral agency. (Carolee Brady Hartman, et al., Plaintiff, vs. Madeleine K. Albright, Secretary of State and Mark B.
Nathanson, BBG Chairman).
14
  BBG/IBB Organizational Diversity Assessment. DTG Associates surveyed over 200, or 11 percent, of BBG/
IBB staff only; grantees were not included. Report results were issued in January 2002, according to the
Office of Civil Rights.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   7 .

                                            UNCLASSIFIED
                                                UNCLASSIFIED




            accountability and transparency in decisionmaking at all levels, greater promotion
            of diversity, improved communications with staff, and elimination of bias in
            agency operations.

                The agency responded to the study findings and has undertaken several initia
            tives to eliminate discriminatory behavior, including the enforcement of mandatory
            equal employment opportunity (EEO) and workforce diversity training classes for
            supervisors and managers, establishment of an alternative dispute resolution
            program, creation of the Diversity Leadership Council, and promulgation of a
            formal sexual harassment policy.

                 The agency also faces a challenge in putting a workforce plan in place that
            ensures that the acquisition staff possess the experience, training, professional
            skills, and competencies to perform its work, as required by the Office of Federal
            Procurement Policy (OFPP) Act, the Clinger-Cohen Act, and OFPP policy letters.15
            IBB and OFPP guidance as well as the Clinger-Cohen Act set minimum training
            requirements and professional standards for all categories of acquisition staff;
            however, OIG found that more than 75 percent of the agency’s acquisition employ
            ees have not met the minimum standards to perform this work.

                 In a recent report to Congress, GAO observed that civilian agencies should
            implement policies and procedures to ensure more effective management and
            training of the acquisition workforce in accordance with acquisition reforms passed
            by Congress that establish education, qualifications, and training requirements.16 To
            its credit, as a result of this and related OIG reviews, IBB was undertaking steps to
            improve the training and performance standards for all staff, including persons
            responsible for acquisition and procurement.17

                OIG received written comments from BBG/IBB on July 3, 2003.18 BBG
            concurred, in principle, with the recommendations in the report; however, the
            agency did not agree with a part of recommendation three, which required provid
            ing OIG with a special report on workforce diversity for the next four years. (The
            BBG/IBB comments are reprinted in Appendix G.)



             OFPP Act (Pub. L. No. 93-400); Clinger-Cohen Act of 1996 (Pub. L. No. 104-106, Div. D); OFPP
            15

            Policy Letters 92-3 and 97-01.
             Acquisition Workforce: Agencies Need to Better Define and Track the Training of Their Employees (GAO-02-737, July
            16

            29, 2002).
            17
              Review of the Broadcasting Board of Governors’ Monitoring of Contractor Performance (AUD/PPA-03-21, Mar.
            2003).
            18
                 See Appendix G for agency comments.


8 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                UNCLASSIFIED
                                            UNCLASSIFIED





                                             FINDINGS



MAJOR MANAGEMENT CHALLENGES IDENTIFIED
   OIG has identified a number of management challenges facing BBG/IBB.
From its own assessment, BBG/IBB faces significant human capital challenges,
such as an aging workforce, succession planning, and adapting to changes in tech
nology. These challenges are indicative of trends throughout the federal
workforce. A human capital crisis appears imminent for the agency.

    BBG/IBB officials told OIG that as the agency transitioned to become an
independent entity in October 1999, it was challenged to assume the legal, security,
procurement, training, administrative, personnel, and other service functions
needed to meet its mission. Agency officials also admitted that it would take time
to respond to new or emerging broadcast demands. Additionally, some managers
said that the agency is often challenged in meeting its mission because it lacks the
resources, including sufficient staffs that possess the right mix of skills.

    In a July 2001 report to OMB on workforce restructuring, the chief of staff
said that the agency lacked the expertise in administration, management, and
budgeting to provide the support managers needed to make day-to-day administra
tive and programmatic decisions. Agency officials also told OIG that workforce
restructuring plans were not required until OMB’s bulletin of May 2001. This
OMB requirement, according to a senior BBG/IBB official, presented the opportu
nity for administrators to take a hard look at the issue for the first time. A senior
IBB official told OIG that significant efforts went into workforce planning during
the consolidation of international broadcasting operations. BBG/IBB had to
accommodate reductions-in-force (RIF), buyouts, shifting language priorities and
surge requirements, which made planning for staff reductions the norm at BBG/
IBB.

    As noted previously, the agency has the potential to face significant losses over
the next few years, with up to 83 percent of current managers and supervisors and
67 percent of other current staff eligible for retirement. Additionally, given stan
dard attrition rate projections, up to an additional 24 percent of staff not eligible


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   9 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED




             for retirement may also depart over the next few years. Agency officials added, that
             BBG/IBB has and will continue to benefit from the type of workforce planning
             now mandated by OMB; however, the agency has no further plans to streamline or
             remove management layers in light of past reductions.

                 IBB officials told OIG that RIFs could have a destabilizing effect on the
             organization’s highly dedicated and specialized staff. Moreover, because of federal
             regulations regarding the conduct of RIFs, newer, talented staff hired by the agency
             before the 1999 reorganization lacked tenure and were often dismissed in RIFs
             because of lack of seniority, or they voluntarily departed, thus leaving a skills gap.

             Barriers to Restructuring the Workforce

                 BBG/IBB uses a variety of mechanisms to carry out its mission, but numerous
             barriers exist to restructuring the workforce effectively. For example, a former
             chief of staff noted in the agency’s preliminary workforce analysis report to OMB
             that resource constraints have restricted staff access to training, managerial skills
             are largely lacking, and there is a resistance by some staff to changing broadcast
             formats. One agency official reported to OMB that, without training and additional
             staff, the transition to digital multimedia formats is burdensome, and efforts are
             often resisted.

                 BBG/IBB officials reported that in light of these events, along with changes in
             broadcast language priorities and diversification in the media environment from
             shortwave radio to television and Internet production, they face formidable chal
             lenges in meeting these emerging requirements as well as implementing training,
             recruitment, and retention strategies. Officials also told OIG that the agency is
             constrained by rigid and time-consuming federal hiring practices, which make hiring
             staff with the right skill mix and firing staff with dated skills a difficult proposition.

             The Human Capital Implementation Framework

                 OMB, OPM, and GAO collaborated to establish a comprehensive framework
             for implementing strategic human capital initiatives. OIG found that IBB’s
             workforce plans did not meet these standards. The plans, for example, did not
             meet the criteria specified by OMB to link strategic plans, organizational alignment,
             and core business practices. BBG/IBB has not provided to OIG or the Board
             detailed information about leadership and succession planning, recruitment, profes
             sional development, and workforce diversity strategies for mission accomplishment
             as required by OMB.


10 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



    OIG found that OPM and OMB provided very specific criteria and guidance
for the preparation of the workforce restructuring and human capital plans. Addi
tionally, OMB provided guidance on workforce plans and restructuring to the
agencies preparing their FY 2003 budget submission and annual performance plans.
Moreover, OPM developed a human capital scorecard to be used specifically in
combination with OMB’s Human Capital Standards for Success to help agencies
achieve green status on the management scorecard.19 Key dimensions to be re
ported on include strategic alignment, strategic competencies, leadership, perfor
mance culture, and professional development. OIG determined that BBG/IBB
largely failed to follow this specific guidance when it prepared its workforce re
structuring and human capital plans.

OPM’s Workforce Planning Model

     OPM also prepared and disseminated to agencies the Federal Workforce Plan
ning Model, which was based upon GPRA requirements for preparing five-year
strategic plans and setting strategic direction. However, BBG/IBB’s workforce
restructuring and human capital plans only partially addressed these dimensions.
BBG officials told OIG that they also relied on the checklist developed by GAO
for human capital planning, which mirrors most of the criteria and standards set by
OMB and OPM.20 However, OIG found that when BBG/IBB prepared its
workforce restructuring and human capital plans, it only partially followed OPM’s
Human Capital Scorecard and did not fully address strategic planning, organiza
tional alignment, core business practices, leadership and succession planning, and
recruitment and professional development strategies for mission accomplishment.
In light of the agency’s past discrimination problems, it needs to address the perfor
mance culture and ensure accountability and fairness in the workplace, as set forth
in the GAO criteria.

Partial Implementation of the Human Capital
Plan

     Although BBG/IBB’s human capital plan outline is fairly comprehensive, how
far-reaching its impact across the agency will be remains unclear. At the time of
this review, IBB administrators admitted that their human capital plan was only
fully implemented in the management directorate, which constitutes only eight
percent of the agency’s workforce. OIG found that the agency had issued a strate

19
     The Human Capital Scorecard: Dimensions of Human Capital, (Dec. 2001).
20
     Human Capital: A Self-Assessment Checklist for Agency Leaders (GAO/OCG-00-14G, Version I, Sept. 2000).


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   11 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED




             gic plan, but it did not reflect the workforce restructuring and human capital plans
             as required by OMB.

                 For example, the OMB, OPM and GAO guidance provided standards to agen
             cies to prepare a detailed human capital framework to help them measure the
             effectiveness and validity of their workforce planning and restructuring efforts. The
             consolidated guidance directs agencies to conduct a skills inventory of staff and
             determine where deficiencies exist in mission-critical occupations. BBG/IBB has
             identified the critical skills vital to the accomplishment of the agency’s mission.
             There is no clear evidence, however, that the agency’s human capital plan is di
             rectly integrated with its strategic, budget, and annual work plans as required by
             GPRA.

                 BBG/IBB has developed a performance appraisal system that links the mission
             of the organization with employee performance, but it lacks clear and explicit
             alignment of the agency’s commitment to the human capital plan in performance
             agreements between the executive director and the Board. BBG/IBB acknowl
             edges that it needs to do a better job of ensuring that appraisals are completed in a
             timely manner, and it is taking steps to do so.

                 According to its workforce plan, BBG/IBB reported that it has not had a
             formal Senior Executive Service (SES) development program; thus, OIG was not
             clear about what steps BBG/IBB would be taking to ensure the reasonable conti
             nuity of leadership through succession planning. BBG/IBB identified the need for
             more intense and higher level management and leadership training but has yet to
             define the roles, responsibilities, and core competencies for its leaders.

                 The consolidated guidance requires agencies to prepare an explicit strategy to
             promote teamwork and clearly communicate a shared vision of the mission and
             new performance management system. Yet there is no evidence of a communica
             tion strategy to do so at BBG/IBB, nor is there evidence that the human capital
             objectives are aligned with BBG’s core business practices.

                 According to BBG/IBB’s workforce restructuring plan, the agency promotes
             the use of individual development plans (IDP), but the director of personnel told
             OIG that his office was not responsible for such plans. It was the responsibility of
             unit heads. OIG found, for example, that the Office of Procurement had prepared
             IDPs. BBG/IBB reported that it plans to recruit, train, and retain the right people
             with the right skill mix to accomplish the agency’s mission, but it has not provided
             specific details with regard to performance measures, goals, and indicators.




12 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



    The annual language service review sets programming priorities, but there was
no specific reference to it in the workforce restructuring and human capital plans.
OMB’s PART process encourages agencies to put mechanisms in place, such as
performance evaluations and annual ratings, to show that senior managers and
supervisors are held accountable for creating high-performing organizations. How
ever, there is no evidence that BBG/IBB’s performance management system fully
reflects the critical success factors identified in OPM’s human capital assessment
and accountability framework. Based on OMB and GAO guidance, the lack of
alignment, integration, and coordination of these critical elements, undercuts the
agency’s attempts at implementing a cohesive workforce restructuring and human
capital program and inhibits efforts to establish a results-oriented, performance-
based culture to meet the PMA.

Efforts To Achieve a Diversified Workforce

    The Foreign Relations Authorization Act, Fiscal Year 2003, directs BBG/IBB
to report on its efforts to achieve a diversified workforce. However, OIG found
that BBG/IBB has not articulated the long-term plans, including performance
indicators and measures, it needs to achieve a diversified workforce. This is a
concern in light of past complaints and legal settlements over race and gender
discrimination. At the beginning of OIG’s review, the Office of Personnel knew of
no supervisors and managers who were admonished for failure to attend mandatory
EEO training for management and staff, which helps to train staff about the
importance of gender, ethnic, and cultural diversity in the workforce. According to
BBG’s executive director, the agency has renewed its efforts to ensure that manage
ment and staff attend mandatory EEO training. In addition, until recently, the SES
corps at BBG/IBB did not reflect the agency’s diverse population. The BBG
Chairman is ultimately responsible for ensuring that the work environment is free
from all forms of discrimination and has renewed his commitment to ensuring that
this is accomplished.21

    BBG/IBB has identified workforce diversity as a goal in its workforce plan as
required by OMB and OPM and has reported accomplishments to Congress in
accordance with the Foreign Relations Authorization Act, Fiscal Year 2003. Ac
cording to an internal management study, reluctance by BBG/IBB senior managers
to confront issues of fairness, accountability, and workforce diversity led to ten
sions and caused mistrust among employees in the past.22 Some agency managers

21
     IBB memo, Office of Civil Rights Sexual Harassment Policy (Nov. 22, 1999).
 IBB Management Partners, Management Development and Support Group at the International Broadcasting Bureau,
22

Report to Senior Management (Jan. 2001).


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   13 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



             expressed concern to OIG about the potential for more lawsuits because of the
             dual system of career advancement and limited opportunities for promotion in the
             language broadcast services.

                 The agency has not yet detailed the performance measures, recruitment targets,
             or retention strategy to be used to achieve greater workforce diversity, although
             recruitment and retention are two pillars of its human capital program. BBG/IBB
             does report that it has made significant progress in diversifying its workforce
             through recruitment, training, and other workforce diversification initiatives. For
             example, the agency reported that from March 2000 to December 2002, it in
             creased the number of female and minority GS-13 and above employees by five
             percent. The agency has said in its strategic plan that diversity is a key value of the
             organization.

                  OIG determined that BBG/IBB’s recruitment budget for FY 2002 was
             $103,043, less than one-fourth of one percent of its Management Directorate
             budget of almost 46 million dollars in FY 2002. Forty-four percent of this amount
             ($45,597) was allocated for the recruitment of women and minorities. Of this
             amount, the Office of Civil Rights received $30,000 to recruit staff. According to
             the BBG executive director, virtually all of the job fairs attended by BBG officials
             were related to the recruitment of women and minorities. These included confer
             ences by the National Urban League, National Association of Black Journalists,
             Blacks in Government, the National Council of La Raza, and the U.S. Hispanic
             Leadership Conference. The agency also posted job announcements on the web
             sites of the National Association of Hispanic Journalists, the Asian-American
             Journalists Association, and the Native-American Journalist Association.23 In light
             of the potential human capital crisis if high retirement and attrition of managers
             and staff occurs, OIG is concerned that sufficient resources are not currently
             allocated to support the agency’s recruitment program in order to meet future
             needs.

             BBG/IBB’s Acquisition Workforce and Federal
             Standards

                 OIG also found that more than three-fourths of the staff currently in posses
             sion of warrants to negotiate, administer, and oversee contracts fail to meet the
             agency’s own minimum as well as governmentwide professional standards. OIG
             further determined that the chief procurement officer could not determine how

             23
               Annual Federal Equal Employment Opportunity Statistical Report of Discrimination Complaints October 2000 - Septem
             ber 2001.


14 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED




many employees hold contracting administration authority outside of headquarters.
Workforce plans failed to fully address the need for ensuring that the acquisition
workforce was adequately trained to meet the professional standards in place at the
agency and mandated by the OFPP Act, OFPP directives, and the Clinger-Cohen
Act. OIG’s review showed that the agency was taking corrective actions to ensure
that procurement and acquisition staffs meet governmentwide standards.

Human Capital Planning and Strategic Goals

    According to GAO and OPM, effective human capital management requires
the sustained commitment and attention of senior leaders and managers.24 OIG
determined that the Board was briefed on the agency’s human capital program, but
that no explicit statement of commitment to comprehensive and complete agency-
wide implementation was issued — although leadership support is considered vital
to the success of workforce planning and restructuring efforts. OIG also deter
mined that neither the VOA director nor any of the program managers and lan
guage service directors, apart from those in the management directorate, were
informed about most of the agency’s human capital plan. This is contrary to OPM
workforce planning guidance. The human capital plan did not provide details on
how or when a skills inventory of the staff would be conducted, as required by
GAO and OPM, nor did it provide performance measures for determining and
measuring staff competencies, as recommended by OMB. Not having a skills
inventory or measures for evaluating staff competencies makes it difficult for
BBG/IBB to determine whether desired competency levels are being met.

    OIG found that the human capital plan failed to address language proficiency
requirements for current foreign language broadcasters. In recent testimony, GAO
reported that foreign language skills are vital to support public diplomacy programs
in a time of increasing globalization and a changing security environment; however,
agencies must now contend with an aging core of language staff and shortfalls in
language skills that can impair the agency’s performance.25 According to the BBG
executive director, however, efforts are being made as part of BBG/IBB’s
workforce restructuring efforts, to devise tests in conjunction with OPM to capture
changes in skills now required of international broadcasters.




 Self-Assessment Checklist (GAO/OCG-00-14G, Vol. I, Sept. 2000) and Seven Keys to Evaluating Federal
24

Workforce Planning (OPM, Dec. 2001).
25
   Foreign Languages: Workforce Planning Could Help Address Staffing and Proficiency Shortfalls (GAO-02-514T, Mar.
12, 2002).


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   15 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



                 In summary, OIG found that the workforce restructuring identified in IBB’s
             human capital plan is a step in the right direction, but more work remains to be
             done to pass the management scorecard. The agency’s workforce planning and
             restructuring has only partially addressed major elements of the OMB, GAO, and
             OPM criteria. OIG believes that in order to be fully effective, human capital
             planning must be directly linked with the agency’s strategic goals. It must be com
             prehensive and address the core competencies of mission-critical staff. It must also
             be well aligned with the organization’s structure and implemented in a consistent,
             cohesive manner throughout the BBG/IBB community.



             HOW BBG/IBB EFFORTS ALIGN WITH OPM’S KEYS TO
             EVALUATING WORKFORCE PLANNING
                  The keys refer to seven elements of federal workforce planning and restructur
             ing set forth by OPM as a guide for all agencies. (See Appendix B.) The workforce
             planning process should be an integrated planning effort representing interests
             throughout an agency. Workforce planning and restructuring decisions should be
             strategic in nature, data driven, measurable, and supported by top management.
             Specific strategies must address planning, performance management, recruitment,
             hiring, training, and professional development needs. The plans should identify the
             core competencies and provide remedies for any skill gaps. Strategies should be
             continuously monitored and updated. OIG found that BBG/IBB did not specifi
             cally incorporate several of the seven key elements in its workforce planning effort.

             Linking Workforce Plans to the Strategic Plan

                 One element missing from the BBG/IBB workforce restructuring and human
             capital plans is that they are not specifically integrated with the agency’s annual
             language service review, which supports its mission, sets program priorities, and
             guides long-term planning. According to OMB, the vital link that integrates strate
             gic goals, program plans, and workforce restructuring in the balanced management
             scorecard is missing. IBB administrators told OIG that human capital planning
             thus far had been implemented only in the management directorate, which consti
             tutes 156 staff out of a workforce of 1,915 in September 2000, or little more than
             eight percent of the agency. Although managers and supervisors throughout the
             management directorate had been briefed on the management scorecard and
             balanced measures, it remained unclear how extensive the effects of the BBG/IBB
             plans would be.


16 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



Monitoring and Revising the Plans and
Strategies

    Officials from IBB’s management directorate told OIG that they were commit
ted to continually monitoring and improving their workforce restructuring and
human capital planning efforts to meet the objectives of OMB’s management
scorecard. They hoped that these efforts would eventually include the entire IBB
organization


    Recommendation 1: The Broadcasting Board of Governors should ensure
    that the International Broadcasting Bureau fully implements its workforce re
    structuring and human capital plans in accordance with the Office of Person
    nel Management’s Federal Workforce Planning Model and the Office of Man
    agement and Budget’s Human Capital Standards for Success.


     BBG concurred with this recommendation.

Workforce Demographics

     Compiling Indicators of Workforce Demographics

   As of September 30, 2000, BBG’s workforce plan listed 1,915 permanent, full-
time government and temporary employees, excluding the broadcast grantees,
RFE/RL and Radio Free Asia. (See Table 1.)




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   17 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



                  Table 1. BBG/IBB Workforce by Office September 2000


             BBG/IBB Unit                                                 Number                          Percent
                                                                        Total Staff                Male               Female

             Broadcasting Board of Governors                                  25                     56                   44
             IBB Direction                                                    12                     42                   58
             Administration                                                   41                     44                   56
             Contracts                                                        17                     47                   53
             Engineering                                                     184                     87                   13
             Financial Management Office                                      29                     38                   62
             Policy                                                           7                      71                   29
             External Affairs                                                 15                     27                   73
             Office of Cuba Broadcasting                                     159                     70                   30
             Office of Civil Rights                                           8                      37                   63
             Personnel                                                        41                     22                   78
             Program Review                                                   6                      67                   33
             Security                                                         15                     60                   40
             WORLDNET                                                        182                     64                   36
             Voice of America                                               1104                     67                   33
             Business Development                                             1                                          100
             Computing Services                                               42                     60                   40
             Affiliate Relations                                              27                     37                   63
                                                                            1,915                    65                   35

             Source: BBG/IBB Agency Direction Staffing Pattern (May 2001) and Permanent Workforce
             Statistics (Sept. 30, 2000).



                 BBG/IBB employees are more male, higher graded, better paid, and have fewer
             years of service when compared with other federal employees. As of December
             1999, the average length of service for BBG/IBB employees was 15.5 years,
             compared with the federal average of 17.1 years. As of September 30, 2000, the
             BBG/IBB workforce included 280 supervisors; the ratio of employees to supervi
             sors was 7.8 to 1.



18 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



    As of September 2000, the average grade of a BBG/IBB employee was GS-12,
compared with the federal average of GS-10. Additionally, BBG/IBB employees
were paid an average of $64,406, approximately $1,161 more than the average
federal employee’s salary of $63,24526 in FY 2000. BBG/IBB had a higher ratio of
male employees when compared with the U.S. government average, 65 percent
versus 55 percent. Of the FY 2000 BBG/IBB workforce, which was 65 percent
male and 35 percent female, 30 percent of the females were at or above the GS-13
level. In addition, 24 percent of the SES positions were female, and 88 percent
were white. Of the FY 2000 workforce, minorities accounted for almost seven
percent of the SES level.

     When compared with the rest of the federal workforce, the average BBG/IBB
employee was older, almost 50 years compared to 46.3 years in the federal
workforce. (See Table 2.) By 2007, up to 67 percent of the staff will be eligible for
retirement, and 83 percent of the current BBG/IBB supervisors will be eligible for
retirement by 2006, compared with only 35 percent of the federal workforce.
GAO describes the overall federal situation as a crisis and profound management
challenge.27 The agency reported that as of September 2000, almost seven percent
of BBG/IBB’s permanent SES were minorities, compared with 14 percent across
the government.

        Table 2. How BBG/IBB Workforce Compared With
        the Federal Civilian Workforce

Category                                                                              Workforce
                                                                   BBG/IBB 2000               Federal Civilian
                                                                              a
Minority SES                                                              6%                          14%
                                                                                  b
Female SES                                                               24%                          25%
Employment by gender
        Male                                                              65%                         55%
        Female                                                            35%                         45%
Retirement Eligibility                                                    67%                         35%
Average Age                                                            50 years                   46.3 years
Note: Percentages are rounded.
a
  As of June 2003, the agency had two minorities in its SES, which represents 13 percent; however, at the
time of the workforce analysis, only one was a permanent member of the SES.
b.
     As of July 2003, the agency reported that women represent 38 percent of its SES pool.

Source: The Fact Book, 2001 Ed., Federal Civilian Workforce Statistics (OPM, July 2001), and BBG/IBB

Workforce Restructuring Plan (Sept. 2001).

26
   Average adjusted basic salary and full time employment by pay system for the District of Columbia as of

March 31, 2000.

27
   High Risk Series: An Update, pp. 71-60.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   19 .

                                            UNCLASSIFIED

                                                 UNCLASSIFIED



                 According to the BBG/IBB Workforce Restructuring Plan, by FY 2007, about
             83 percent of all current IBB supervisors would be eligible for retirement. Of
             these, 27 percent are expected to retire. By FY 2006, at least 67 percent of the
             staff could retire from the agency. In addition, up to 24 percent might also separate
             from the agency. Thus, the potential exists for a destabilizing loss of mid- and
             senior-level management and staff. IBB officials told OIG that substantial reduc
             tions in staffing levels in response to the past consolidation of international broad
             casting have already had a destabilizing effect on the organization’s ability to meet
             its mission. Moreover, because of federal regulations regarding the conduct of
             RIFs, newer, talented staff hired by the agency before the 1999 reorganization
             lacked tenure and were often dismissed in RIFs because of lack of seniority, or
             they voluntarily departed. BBG officials also reported that the nine RIFs, ending in
             FY 2000, had undermined efforts to recruit and maintain a highly skilled and
             diverse workforce. BBG officials told OIG that highly talented, skilled individuals
             relatively new to the organization and to government service were most vulnerable.
             They also said that those not forced out during layoffs often chose to leave, owing
             to continued uncertainties about the agency’s future.

                 At the beginning of this review, OIG found that the Office of Personnel knew
             of no staff that was admonished for failure to attend mandatory training sessions
             offered in workforce diversity or sexual harassment; individual units had varying
             levels of participation. The BBG executive director told OIG that the agency now
             enforces its requirement that supervisors and managers attend mandatory
             workforce diversity and sexual harassment classes. OIG noted that officials with
             RFE/RL have required bi-annual training for all managers and staff on sexual
             harassment and diversity issues. OIG also noted with concern some evidence that
             the director of Civil Rights had not been given the opportunity to brief the Board
             formally and routinely regarding issues related to the possibility of discriminatory
             practices within the agency, particularly among the non-English-speaking language
             services. BBG’s Executive Director said that the Director of Civil Rights prepared
             a written report for the Board each month.


                 Recommendation 2: The Broadcasting Board of Governors should ensure
                 that the International Broadcasting Bureau meets the Office of Management
                 and Budget’s Human Capital Standards of Success with regard to workforce
                 diversity plans. This can be accomplished by putting procedures in place to
                 ensure that workforce diversity objectives are included in the bureau’s
                 workforce restructuring and human capital plans.




20 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



       BBG concurred with this recommendation.


      Recommendation 3: The Broadcasting Board of Governors should ensure
      that the International Broadcasting Bureau provides annual reports to the Of
      fice of the Inspector General through FY 2007 on the reasonable and valid
      measures it is taking to improve workforce diversity based upon the data it
      receives from agency-wide surveys of the work environment.


    BBG concurred with this recommendation but disagreed with the requirement
to submit a special annual report on workforce diversity to OIG.

       Improving Workforce Diversity Planning

     The Foreign Relations Authorization Act, Fiscal Year 2003,28 directed BBG to
report on its efforts to diversify its workforce. The agency and its predecessor, the
United States Information Agency, had been the subject of a highly publicized
sexual discrimination complaint. There were also complaints and reports of foster
ing a hostile work environment, yet OIG noted that supervisors and managers
generally did not attend mandatory workforce diversity classes until recently. This
is troubling in light of past and persistent complaints as well as costly legal settle
ments over race, age, and gender discrimination.

    At the beginning of OIG’s review, BBG/IBB made EEO training mandatory
for management and staff, but according to the Office of Civil Rights, this policy
was not uniformly enforced. Mandatory attendance at this training is now enforced
for supervisors and managers, and the BBG executive director has restated his
pledge to make the value of workforce diversity a priority. The agency’s strategic
plan identifies this as a key value. In addition, the VOA Chairman renewed policy
statements pledging a firm commitment to EEO and the prevention of sexual
harassment. This is helpful as it provides staff with information on the importance
of gender, ethnic, and cultural diversity in the workforce.

    In July 2001, almost 11 percent of a cross section of BBG/IBB managers and
staff participated in an agency-wide survey on the diversity climate in their work
place. Survey results showed that participants perceive there are problems and
many opportunities for improvement. For example, 88 percent of staff respon
dents reported that racial and cultural differences influence behaviors within their
organization. In response to the query “Do you feel that our agency understands

28
     Pub.L. 107-228.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   21 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



             and values diversity?” 44 percent of respondents answered “Yes,” 40 percent
             responded “No,” and 16 percent responded “Yes and No.” Of the 40 percent who
             responded “No” and 16 percent who responded “Yes and No,” 79 percent indicated
             a “sense of intolerance to those who are different.”

                 Of the managers who participated in the survey, 50 percent said they believe
             the agency understands and values diversity; however, 78 percent of them ac
             knowledged that the lack of understanding different cultures is an obstacle to
             working with those who are different from them. Additionally, 62 percent of the
             managers as well as 88 percent of the nonmanagers said that racial and cultural
             differences influence behaviors within the organization.

                 The consensus of the staff (82 percent) and managers (85 percent) surveyed
             was that mandatory diversity training would improve the diversity climate at BBG/
             IBB. With regard to the language services, 55 percent of the staff surveyed indi
             cated, but only 16 percent of the managers surveyed agreed, that the English-
             language broadcasters receive preferential treatment. By contrast, several IBB
             officials reported in an internal management study that the agency would benefit
             from implementing a plan that would promote an all-inclusive work environment
             and an institution free of bias.29

                 OIG noted that the agency has established a Diversity Leadership Council to
             assess progress and recommend methods to improve the management of diversity
             issues in the workforce. To help the agency further achieve a more diversified
             workforce, the IBB Office of Civil Rights advised OIG that it had encouraged
             BBG to increase the area of targeted recruitment, expand training opportunities,
             incorporate diversity into the agency’s succession and workforce planning objec
             tives, and factor support for workforce diversity into the annual performance
             appraisals of all supervisors and managers.

             Workforce Planning

                    Determining Future Staffing Needs

                  According to BBG/IBB’s workforce plan, the agency has identified several
             critical areas requiring attention. Both changes in technology and program delivery
             methods are exacerbated by projected staff losses. BBG/IBB’s greatest concerns
             emphasized the need for management and leadership training, succession plans for


             29
                  IBB Management Partners Report to Senior Management (Jan. 2001).


22 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED




the Foreign Service officer positions at transmitter stations, Internet development,
multimedia skills, emerging technology, professional skills training, and continuing
education programs. In addition to the need for strong journalistic skills, workforce
planners reported a need for staff experts in radio and television writing and broad
casting as well as marketing and promoting radio, television, and Internet products.

     Through their workforce analysis, BBG/IBB planners identified the need to
improve training, management and leadership development, recruitment, retention,
and the professional skill base of staff in order to respond to shifts in priorities.
However, the agency has not prepared a listing of core competencies for various
skill categories. The agency has not demonstrated that the new performance
appraisal system for staff, including SES and senior managers, clearly reflects the
agency’s commitment to a new performance management system. OIG noted, for
example, that there are no accountability measures for SES staff that demonstrate
the new emphasis on linking the achievement of strategic goals to human capital
initiatives. There were also no clear indications that the agency had identified the
specific core competencies needed to support its goals and service delivery strate
gies, nor had it reflected these in position descriptions for staff or managers.

     Analyzing Projected Staffing Gaps

    At the time of OIG’s review, funds for training represented less than one
percent of IBB’s annual operations budget. This compares with the government
average of two percent and the best-performing agencies’ level of six percent.30
The agency is attempting to find creative, cost-effective ways to offer more training
and professional development opportunities for all staff through its Training and
Development Division and Advisory, Referral, and Counseling Service with assis
tance from the Small Agency Council Training program. New courses recently
offered to staff emphasize customer satisfaction, enhanced oral and written com
munication skills, broadcast interviewing, supervision, management and leadership
development, performance management, discipline, labor relations, conflict resolu
tion, team building, and coaching, skills.

    The director of personnel told OIG that IDP’s are generally not prepared for
staff, except in the Office of Contracts. As recently as 2002, over 62 percent of
BBG/IBB staff had not received annual performance appraisals evaluating their




 American Society on Training and Development, Training in the Federal Workplace, Conference on
30

Excellence in Government, Washington, D.C., July 2002.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   23 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED




             skills and ability to achieve the agency’s mission.31 A skills inventory had not been
             conducted to assess the current level of staff talents and abilities with those
             needed for the present or future. Generally, updated core competencies had not
             been identified for the various professions, nor had position descriptions been
             updated to reflect the new management agenda. At the start of OIG’s review, there
             were no uniform mandatory training requirements for staff and management across
             the agency, although individual offices had established their own standards. Addi
             tionally, mandatory EEO training courses for managers and supervisors were not
             well attended and not given high priority, according to the Office of Civil Rights.
             Managers and supervisors in the IBB management directorate, however, are now
             required to attend EEO training and receive training in evaluating performance and
             giving feedback.

                  Developing Strategies to Address Staffing Gaps

                 BBG/IBB administrators had not put in place action plans to execute the
             human capital planning strategy. They had not established detailed plans for
             performance management, identified responsible parties, nor set target dates for
             accomplishing workforce restructuring. The agency had identified the specific
             training needed by the SES and senior management staff, but whether it would be
             adequately funded was still to be determined. According to officials in the Training
             and Development Division at the beginning of this review, IBB was considering
             participation in the government’s electronic learning initiative, which is part of the
             PMA. Officials told OIG that they consider the recruitment and retention of a
             highly trained workforce some of their management priorities.

                  Keeping Staff Apprised of the Workforce Plans

                 OIG found that the overall goals of the human capital plan have been commu
             nicated only to managers and staff in the IBB management directorate. This
             practice is not consistent with OPM and GAO guidance for federal workforce
             planning. Parts of the plan, including the new performance appraisal system, have
             been communicated to management and union representation.




             31
                In 5 CFR 430.206, OPM Performance Management, agencies are urged to designate an official appraisal
             period, generally 12 months, during which performance is to be monitored and for which a rating of
             record is to be prepared.


24 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



Federal Professional Standards for Acquisition
and Procurement Staff

    The federal standard is for procurement and acquisition workforce staff to
receive a minimum of 40 hours of continuing education units annually as well as
periodic tests of their knowledge of the fundamentals of federal contract law and
contract administration to be considered proficient, according to officials at OMB,
OFPP, and GAO. IDP’s are generally not prepared or followed for most BBG/IBB
acquisition and procurement staff, although this is also a federal requirement.

     OIG’s analysis of the Office of Contracts’ training budgets for FYs 2000-02
disclosed that 76 percent of warranted contracting officers in the organization (71
of 94) had not received procurement training in the last two years as required by
the agency’s own procurement policies and OFFP and the General Services Admin
istration (GSA).32 OIG was not able to determine whether procurement officials
overseas and in the Office of Cuba Broadcasting had received sufficient training in
federal acquisition law and procurement standards, policies, and procedures. OIG
found that classes were offered in management and simplified acquisitions, but also
noted that the Office of Contracts had not updated records to reflect the training
that the staff had received before the current warrants were issued.

     Although OIG has previously reported on failures in property management and
other aspects of acquisition and procurement management problems at BBG/IBB,33
it found no evidence of professional development plans in place for property and
facility managers or the logistics and supply staff that, according to GSA, are part
of the acquisition workforce. Generally, BBG/IBB has prepared core competen
cies for contracting officers, but it has not strictly enforced requirements to imple
ment them for the various skill levels.

       Fostering a Well-Trained Acquisition Workforce

    The OFPP Act and its 1996 amendments are designed to foster and promote a
well-trained and adequate acquisition workforce. Additionally, the Clinger-Cohen
Act requires agencies to establish education, training, and experience requirements
and ensure uniform policies and workforce qualification standards, and OFPP
Policy Letters 92-3 and 97-1 set forth core competencies for the acquisition
workforce. OIG has no assurance, however, that the majority of staff is meeting

32
     See Appendix F for prescribed training.
 Review of Monitoring Contractor Performance for the Broadcasting Board of Governors (AUD/PPA-02-21, Mar.
33

2003); IBO-A-03-01 (Jan. 2003).


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   25 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED




             the professional certification requirements, nor that they are registered on GSA’s
             Acquisition Career Management Information System, as required. These deficien
             cies may place the agency at risk of inadequate monitoring, potential cost overruns,
             late deliveries, and poor contractor performance. The agency has active contracts
             currently valued at around $219 million. This includes contracts totaling $50
             million awarded in FY 2002.

                 The Clinger-Cohen Act also requires civilian agencies to collect standardized
             information on their acquisition workforce. In addition, OFPP Policy Letter 97-01
             requires executive agencies to establish core training, continuing education require
             ments, and competency standards for the acquisition workforce. However, OIG
             found that the senior procurement executive had no records to determine the
             number of agency staff responsible for administering and monitoring contracts,
             including contract and procurement specialists and other positions in which signifi
             cant acquisition-related functions are performed as required. Also, there was no
             system in place to test the competency and skill levels of procurement and acquisi
             tion staff.

                  Measuring the Effectiveness of Training

                 OIG found no specific performance measures in place to gauge the effective
             ness of training classes currently offered for acquisition and procurement staff
             despite OFPP Policy Letter 92-3, which requires the establishment of core compe
             tencies and specific training requirements for all acquisition workforce members,
             including contracting and purchasing officers, authorized representatives of the
             contracting officer (AR/CO) and contracting officer technical representatives
             (COTR). Generally, core competencies had been identified, but not required, for
             staff serving in various capacities, including property managers and logistics and
             supply staff.

                 At the beginning of OIG’s review, the Office of Contracts did not have a
             system to track the training of each employee, which would ensure compliance
             with BBG/IBB’s own internal procurement policies and procedures. OIG found
             the lack of mandatory acquisition and procurement training for managers and
             supervisors equally troubling. OIG also determined that the agency’s workforce
             plans lacked sufficient detail regarding core training, competency requirements, and
             professional development for its acquisition workforce. According to the senior
             procurement executive, corrective actions are under way to ensure that the agency
             improves its level of compliance with federal procurement policies and procedures.




26 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



     Improving the Identification of Acquisition Staff

     At the time of OIG’s review, the Office of Contracts said it had 31 contract
specialists. However, OIG found that warrants were issued for 94 staff throughout
the agency. In accordance with GSA policies and descriptions of the federal
acquisition workforce, the size of the acquisition workforce is in all likelihood
greater than the 94 employees given contracting warrants. For example, OIG found
evidence that, in addition to these 94 warranted officers, electronic engineers,
program managers, administrative officers, and a radio editor exercise contracting
authority. OIG’s findings were similar to GAO’s determination in July 2002 that
civilian agencies need to improve the identification of all acquisition-related
positions and ensure that these staff receive professional development opportuni
ties.

    OIG found a significant number of staff outside the Office of Contracts
involved with various aspects of acquisition, logistics, property management, and
administrative operations — all considered part of the acquisition workforce by
GSA. These staff, however, lacked the critical training and professional certifica
tion required by the Federal Acquisition Regulations and GSA’s Acquisition
Workforce Tracking System.

    OIG also determined that the Office of Contracts does not know the actual
number of contracting officer representatives and COTRs at work in the agency.
OIG was told that they are referred to as AR/COs. An AR/CO is designated for
each contract and serves as technical representative for the contract. The senior
procurement executive told OIG that his office does not have direct control over
the AR/CO-related training staff receive. Further, he told OIG that his office is
not responsible for monitoring the AR/CO training; this responsibility has been
delegated to the program office management in which each AR/CO is assigned.
Officials at OMB and OFPP told OIG they dispute this position and indicated that
whoever signs these warrants is responsible for the administration and performance
of the contracts, including proper billing procedures, allowability of expenditures,
reasonableness of costs, timely deliveries, and contractor performance.

    The problems OIG identified may be attributed to several factors, according to
the senior procurement executive, including poor internal controls and the staff ’s
lack of knowledge about contract law and federal acquisition procedures. OIG
noted that this lack of knowledge could prove costly if it is found that unqualified
persons priced, negotiated, and oversaw the administration of over $200 million in
contracts.



OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   27 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



                  Improving Acquisition Staff Recruitment, Training,

                  and Management


                  In response to these findings, the senior procurement executive told OIG that
             this had been an administrative oversight and that his office needed “to make
             significant improvements in its recruiting, training, and management” of contract
             ing staff and other staff who administer contracts throughout headquarters and
             field locations. In a November 2002 memo to OIG, he wrote that his office plans to
             make improvements in its recruiting, training, and management of all staff who
             administer contracts. For example, the Office of Contracts is implementing an
             automated database to track all training of procurement and acquisition staff. For
             the first time, the agency will meet annual OFPP certification requirements for
             various levels of warranted contracting authority. Also for the first time, the agency
             will submit annual reports to OFPP on the qualifications and competencies of its
             acquisition and procurement personnel. New performance standards for contract
             ing personnel are also being put in place as part of the annual appraisal process,
             and the completion of IDP’s is planned. Additionally, the senior procurement
             executive has assigned staff within the Office of Contracts to work full-time on
             contract administration policy and procedural matters.


                 Recommendation 4: The Broadcasting Board of Governors should fully
                 implement policies and procedures to ensure that training requirements and
                 certification standards for the International Broadcasting Bureau’s acquisition
                 and procurement workforce are met in accordance with the agency’s internal
                 guidance and Office of Federal Procurement Policy Letters 92-3 and 97-1.


                 BBG concurred with this recommendation and has undertaken action to meet
             these standards.


                 Recommendation 5: The Broadcasting Board of Governors should require
                 that all staff granted authority to conduct acquisition and procurement work
                 be registered in the web-accessible database known as the Acquisition Career
                 Management Information System managed by the Office of Federal Procure
                 ment Policy of the Office of Management and Budget.


                 BBG concurred with this recommendation and has undertaken action to meet
             these standards.




28 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED





                LIST OF RECOMMENDATIONS

Recommendation 1: The Broadcasting Board of Governors should ensure that
  the International Broadcasting Bureau fully implements its workforce restructur
  ing and human capital plans in accordance with the Office of Personnel
  Management’s Keys to Evaluating Federal Workforce Planning and the Office
  of Management and Budget’s Standards for Success.

Recommendation 2: The Broadcasting Board of Governors should ensure that
  the International Broadcasting Bureau meets the Office of Management and
  Budget’s Human Capital Standards for Success with regard to workforce diver
  sity plans. This can be accomplished by putting procedures in place to ensure
  that workforce diversity objectives are included in the bureau’s workforce re
  structuring and human capital plans.

Recommendation 3: The Broadcasting Board of Governors should ensure that
  the International Broadcasting Bureau provides annual reports to the Office of
  the Inspector General through FY 2007 on the reasonable and valid measures it
  is taking to improve workforce diversity based upon the data it receives from
  agency-wide surveys of the work environment.

Recommendation 4: The Broadcasting Board of Governors should fully imple
  ment policies and procedures to ensure that training requirements and certifica
  tion standards for the International Broadcasting Bureau’s acquisition and pro
  curement workforce are met in accordance with the agency’s internal guidance
  and Office of Federal Procurement Policy Letters 92-3 and 97-1.

Recommendation 5: The Broadcasting Board of Governors should require that
  all staff granted authority to conduct acquisition and procurement work be reg
  istered in the web-accessible database known as the Acquisition Career Manage
  ment Information System managed by the Office of Federal Procurement Policy
  of the Office of Management and Budget.




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   29 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





30 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED





                      LIST OF ABBREVIATIONS

                  AR/CO            Authorized Representative of the Contracting Officer
                       BBG         Broadcasting Board of Governors
                    COTR           Contracting Officer’s Technical Representative

                      EEO          Equal employment opportunity

                      GAO          General Accounting Office

                    GPRA           Government Performance and Results Act
                       GSA         General Services Administration

                        IBB        International Broadcasting Bureau

                        IDP        Individual development plan

                     OFPP          Office of Federal Procurement Policy
                       OIG         Office of Inspector General

                      OMB          Office of Management and Budget

                      OPM          Office of Personnel Management

                     PART          Performance Assessment Rating Tool

                      PMA          President’s Management Agenda
                 RFE/RL            Radio Free Europe/Radio Liberty
                        RIF        Reduction-in-force
                        SES        Senior Executive Service
                      VOA          Voice of America




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   31 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





32 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



APPENDIX A
               OMB’s Performance Assessment Rating Tool

    One of the five PMA initiatives is budget and performance integration. All
federal agencies are now required, in accordance with OMB guidelines, to imple
ment a more performance-based budgeting process. In FY 2003, OMB launched
the Performance Assessment Rating Tool (PART), employing a traffic light scoring
system to grade 20 percent of agencies’ performance budgeting criteria, represent
ing almost $500 billion in annual government spending. From this grading process,
OMB rendered budget and management recommendations. All but a few agencies
received red light scoring because they failed, according to OMB, clearly to link
their funding requests to program performance.

    PART consists of a series of weighted questions and standardized criteria
intended to support OMB’s assessment of the integration and linkage of the
following key program characteristics: integrated planning and budgeting functions,
devising a results-oriented strategic plan, realigning budget accounts with perfor
mance goals, assigning budgetary costs to performance goals, and linking program
management with results.

    Performance budgeting is not new, however the PART process involves greater
transparency and incorporates real-time data on costs and outcomes. It also re
quires clear performance goals and greater accountability for tangible program
results. PART incorporates existing practices used by OMB examiners and comple
ments the 1993 Government Performance Results Act (GPRA), which requires
agencies to develop strategic plans and measure progress in meeting mission goals.

    PART provides a common, transparent approach to assessing programs and
supporting recommendations based on those assessments. It also enforces the
linkage between strategic planning and program results. There is a unique PART for
each of the seven categories of federal programs, ranging from competitive block
grants and credit programs to capital assets and direct federal programs.

    By FY 2004, approximately 240 federal objectives or programs will undergo
greater scrutiny to determine if performance goals are met. OMB plans to use
PART again as a central element of the 2005 budget process.
Source: OIG Summary of OMB memoranda and instructions for the Program Assessment Rating Tool.




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   33 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





34 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



APPENDIX B
                  OPM’s Federal Workforce Planning Model

    The workforce plan is based on the agency's strategic plan and considers the
mission, vision for the future, core values, and goals. Top management supports it.

    Data analysis has been conducted which analyzes demographic and environmental
impacts on the workforce plan. Information has been extracted from agency human
resource information systems and includes indicators such as distribution of employees
by pay level, attrition rates, retirement rates, projected eligibility by pay level, and ratios
of managers to employees. Where possible, benchmarking has been completed in areas
such as skills, education levels and geographic and demographic trends.

    The agency has determined the number and type of employees that will be needed
to address the challenges of the next three to five years. The number and types of
competencies have been defined for employees in each occupational group. Skill levels
for each competency are determined and listed. There are clear indications that the
agency has identified the roles and core competencies needed to support its goals and
service delivery strategies.

     An analysis has been performed which assesses the gap between current competen
cies and those needed for the future. The analysis also addresses workforce size,
demographics, occupations, and geographical locations.

     Strategies are developed to address the gaps between the projected supply and
demand. Action plans to execute the strategies are clearly laid out, including respon
sible parties, due dates, and resources needed. As needed, specific strategies may
address executive succession planning, compensation, performance management, an
employee-friendly workplace, recruitment and hiring, training and professional develop
ment.

     The plan has been communicated to employees and stakeholders. The trust of the
workforce is earned by involving employees in the strategic planning process. Staffs in
civil rights, human resources, budget, strategic planning, and information management,
as well as unions and line managers provide integrated workforce planning support.

    The workforce plan and strategies are continually monitored and refined to ensure
their ongoing effectiveness and continuous improvement, taking into account resource
changes, and other conditions impacting the agency.
Source: OPM’s Federal Workforce Planning Model.


OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   35 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





36 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



APPENDIX C
                             GAO Human Capital Principles

    According to the Office of Personnel Management, federal workforce planning
details the strategic, structured, systematic, and continuous actions that must be taken
to allocate resources, align the organization, and recruit, train and retain the right people
(human capital) in the most effective method possible to achieve success. As the
General Accounting Office defines it, human capital means people whose value can be
enhanced through investment so that the performance capacity of an organization
increases. During December 2000 hearings before the Senate Committee on Govern
mental Affairs, the Comptroller General outlined the following human capital principles.

    Human capital management is intrinsically fundamental to strategic business
management. Human capital considerations should be integrated to an organization's
mission, strategic plans, core values, and operational policies and practices.

     Human capital functions go beyond traditional personnel roles and human capital
staff should be integrated into agency's top management teams.

   Leverage the internal human capital function with external experts possessing the
knowledge and skills to assist the organization as needed.

    Identify leadership traits, and then hire, develop and sustain leaders possessing the
leadership characteristics essential to achieve the agency's mission and goals.

     Communicate common understanding the organization's shared values, mission and
strategic goals, and encourage staff to work as a team to achieve these goals.

    Hire, develop and retain staff based on their knowledge, skills, abilities, and behav
iors needed to achieve high levels of performance. Build and sustain the organization's
talent pool through effective recruitment, hiring, development and retention policies
and practices.

    Support and reward teamwork by staff with possessing the right competencies
throughout the organization to achieve high performance.

   Incorporate and integrate employee input into the design and implementation of
human capital policies and practices.

     Evaluate and measure the effectiveness of human capital policies and practices.
Source: OIG’s summary from GAO, Human Capital: A Self-Assessment Checklist for Agency Leaders (GAO/
OCG-00-14G, Version I, Sept. 2000), and High Risk: An Update, Strategic Human Capital Management: A Gov
ernment-wide High Risk Area (GAO-01-263, Jan. 1, 2001), pp. 71-96.

OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   37 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





38 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



APPENDIX D
             OMB’s Standards for Success—Human Capital

    Agency human capital strategy is aligned with mission, goals, and organiza
tional objectives: (1) integrated into Budget and Strategic Plans; (2) consistent with
OPM's human capital scorecard issued December 1, 2001; and (3) complies with
standards for internal accountability systems to ensure effective merit-based human
resources management.

    Agency has a citizen-centered organizational structure that is delayered and
oriented toward performing the mission assigned to it.

   Agency (1) sustains high-performing workforce that is continually improving in
productivity; (2) strategically uses existing personnel flexibilities, tools, and tech
nology; and (3) implements effective succession plans.

     No skill gaps/deficiencies exist in mission-critical occupations.

    Agency differentiates between high and low performers through appropriate
incentives and rewards.

    Changes in agency workforce skill mix and organizational structure reflect
increased emphasis on electronic government (e-government) and competitive
sourcing.
Source: OMB Memorandum for Heads of Executive Departments an Agencies, Implementation of the
President’s Management Agenda and Presentation of the FY2003 Budget Request, (October 30, 2001), Standards for Success
for Government wide Initiatives.




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   39 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





40 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



APPENDIX E
                   OPM’s 5-Step Workforce Planning Model
Five Steps                                    Implementation
1: Set Strategic Direction                     Set a Strategic Direction
                                               Organize and Mobilize Strategic Partners
                                               Set Vision, Mission, Values and Objectives
                                               Review Organizational Structure
                                               Conduct Business Process Reengineering
                                               Set Measures for Organizational Performance
                                               Position Human Resources to be an Active Partner
                                               Questions Your Strategic Direction Plan Needs to
                                               Answer

2: Analyze Workforce                           Centralize Personnel Data File
Identify Skill Gaps                            Current Population Survey Information
Conduct Workforce Analysis

3: Develop Action Plan                         Prepare An Outline for Developing a Workforce
                                               Action Plan
                                               Design a Workforce Plan
                                               Identify Your Stakeholders
                                               Develop Ways to Address Skill Gaps
                                               Develop a Project Plan
                                               Set Specific Goals
                                               Develop Your Communications Strategy
                                               Evaluate Your Progress

4: Implement Action Plan                       Prepare an Outline for Implementing the Action Plan
                                               Communicate the Action Plan
                                               Market the Action Plan
                                               Targeting and Recruiting
                                               Conduct Recruiting and Training
                                               Implement Retention Strategies
                                               Conduct Organizational Assessments

5: Monitor, Evaluate, and Revise               Prepare an Outline for Monitoring, Evaluating, and
                                               Revising
                                               Monitor: Assess Effectiveness
                                               Evaluate: Adjust Plan as Needed
                                               Revise: Address New Workforce and
                                               Organizational Issues


Source: OPM Federal Workforce Planning Model.



OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   41 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





42 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



APPENDIX F
                       Acquisition Training Recommended
                      by GSA’s Federal Acquisition Institute


     The following are examples of certification and professional development
opportunities to help participants acquire basic knowledge and skills in the pur
chasing and contracting prepared by the Federal Acquisition Institute. These
courses are designed especially for employees in the purchasing or procurement
occupations who want to expand their skills, as well as employees in other adminis
trative occupations for whom acquisitions is a major collateral duty.
Contracting Basics for COTRs (AR/COs)
Key elements and features of a contract
Various types of government contracts
Administering key terms and conditions of a contract
The appropriate role of the COTR
Contract advisory and monitoring responsibilities

Contracting Basics for Administrative Personnel
Translating complex acquisition terms and concepts into everyday English
Understanding administrative and support responsibilities in contracting and
acquisition
Government acquisition process
Recognizing and avoiding potential conflicts of interest

Interpreting Key Provisions of the Federal Acquisition Regulations
Basic Contract Administration
Contracting Basics for COTRS
Introduction to Government Contracting or Contracting Basics for Administrative
Personnel
Procurement Planning
Simplified Acquisition Procedures

Elective Courses
Basic Statistics
Introduction to Financial Management




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   43 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED



             Management Analysis: Overview
             Project Management
             Writing, Communication and Interpersonal Skill Courses
             Briefing Techniques
             Clear Writing Through Critical Thinking, Interpersonal Communications, Special
             ized Acquisition Government Contract Law
             Writing Performance-Oriented Statements of Work

             Property Management for Custodial Officers
             The duties of a property custodian
             The concepts involved in audit trail development
             Useful skills for solving problems based on personal case study approaches
             Decision-making techniques to use team approaches to managing personal property
             Managing problems in personal property

             Personal Property Management Courses
             Property Management for Custodial Officers
             Property Accountability: The Life Cycle
             Warehousing, Operations and Disposal
             Applications in Personal Property Accountability
             Technology for Personal Property Management
             Contracting Basics for COTRs
             Personal Property Management-Related OSHA Training
             Simplified Acquisition Procedures
             Space Management: Office Layout
             Introduction to Government Contracting

             Logistics Management Courses
             Management Analysis: Overview
             Management Analysis: Designing and Conducting a Study
             Management Analysis: Data Gathering
             Data Collection and Analysis
             Basic Statistics
             Cost-Benefit Analysis Workshop
             Project Management
             Management Analysis: Advanced Applications
             Federal Budgeting for Non-Budget Personnel
             Introduction to Federal Budgeting
             Management Accountability and Control
             Introduction to Program Evaluation



44 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED



Management Analysis: Planning
Introduction to Information Technology
Management Analysis: Advanced Applications
Data Collection and Analysis
Cost-Benefit Analysis Workshop
Introduction to Information Technology
Management Analysis: Planning
Introduction to Program Evaluation
Management Accountability and Control
Federal Budgeting for Non-Budget Personnel
Introduction to Federal Budgeting


Source: OFPP, A Guide to Best Practices in Contract Administration (October 1994), and GSA Competency Based
Career Development Training Guide (Feb. 2003).




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   45 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





46 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED


APPENDIX G
                                         Agency Comments




OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   47 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





48 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
                                            UNCLASSIFIED





OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003   49 .

                                            UNCLASSIFIED
                                                 UNCLASSIFIED





50 .   OIG Report No. IBO-A-03-02, Strategic Management of Human Capital and Workforce Planning Initiatives at the BBG - September 2003


                                                 UNCLASSIFIED
UNCLASSIFIED





UNCLASSIFIED

